UNITED STATES COURT OF APPEAL

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

April 23, 2020
Christppher M. Wolpert
Clerk of Court

JOHN ELDRIDGE CONE, JR.,
Plaintiff - Appellant,
v.

No. 19-7068
(No. 6:16-00384-JHP-KEW)
(E.D. Okla.)

JANET DOWLING, Warden,
Defendants - Appellees.

ORDER DENYING CERTIFICATE OF APPEALABILITY*
Before BACHARACH, BALDOCK, and MORITZ, Circuit Judges.
John Cone, an Oklahoma prisoner proceeding pro se,1 seeks a certificate of
appealability (COA) to appeal the district court’s denial of his 28 U.S.C. § 2254
habeas petition. For the reasons explained below, we deny Cone’s request for a CO A
and dismiss this matter.2
\

* This order is not binding precedent, except under the doctrines of law of the
case, res judicata, and collateral estoppel. But it may be cited for its persuasive value.
See Fed. R. App. P. 32.1; 10th Cir. R. 32.1.
i We liberally construe Cone’s pro se filings. But we will not act as his
advocate by, for example, formulating possible arguments or combing the record for
support. See James v. Wadas, 724 F.3d 1312, 1315 (10th Cir. 2013).
2 Per his notice of appeal, Cone also seeks to appeal the district court’s later
order (1) construing his motion to alter or amend the judgment under Federal Rule of
Civil Procedure 59(e) as an unauthorized second or successive habeas petition and
(2) dismissing that motion. But Cone’s combined opening brief and COA application
fails to raise any challenge to the district court’s characterization or dismissal of his
1

Appejncto* A

In 2012, Cone shot and killed Skylar Brewer. Evidence at trial showed that
Brewer took $25 from Cone and that Cone shot Brewer after Brewer returned the
money. Although several witnesses testified to the contrary, Cone maintained that he
shot Brewer in self-defense and in the heat of passion. The state trial court instructed
the jury on the lesser-included offense of heat-of-passion manslaughter but did not
instruct the jury on the more general heat-of-passion defense.
The jury convicted Cone of both first-degree murder and assault and battery
with a deadly weapon. The state trial court sentenced Cone to life with the possibility
of parole for the murder and imposed a concurrent five-year sentence for the assault.
Cone appealed his convictions to the Oklahoma Court of Criminal Appeals (OCCA)
and argued, as relevant here, that his trial counsel’s failure to request an instruction
on a heat-of-passion defense constituted ineffective assistance of counsel (IAC). He
also asserted an IAC claim premised on his counsel’s failure to object to purported
victim-sympathy statements during the prosecutor’s closing argument. The OCCA
rejected Cone’s arguments and upheld his convictions.
Cone then filed this § 2254 petition in federal court, asserting, among other
things, the same IAC arguments that he raised in his direct appeal. The district court
determined that the OCCA did not unreasonably apply the IAC standards set forth in
Strickland v. Washington, 466 U.S. 668 (1984), or rely on any unreasonable factual
determinations when it denied Cone’s IAC claims. See § 2254(d). Under Strickland, a

motion. We therefore decline to consider any such challenge and focus our attention,
as Cone does, solely on the district court’s initial order denying habeas relief.
2

defendant must demonstrate both deficient performance (that his attorney’s actions
“fell below an objective standard of reasonableness”) and resulting prejudice (that
“there is a reasonable probability that, but for counsel’s unprofessional errors, the
result of the proceeding would have been different”). 466 U.S. at 688, 694. And as
the district court recognized, this deferential standard becomes “doubly deferential”
in federal habeas proceedings, such that federal habeas courts “give both the state
court and the defense attorney the benefit of the doubt.” Burt v. Titlow, 571 U.S. 12,
15 (2013) (first quoting Cullen v. Pinholster, 563 U.S. 170, 190 (2011)).
As to Cone’s heat-of-passion IAC claim, the district court concluded that the
OCCA’s ruling—that Cone suffered no prejudice from counsel’s failure to seek a
jury instruction on a heat-of-passion defense because the absence of such an
instruction was harmless—was not an unreasonable application of Strickland and did
not turn on any unreasonable factual determinations. In so doing, the district court
also concluded that the evidence did not support a jury instruction on the heat-ofpassion defense. Next, regarding the prosecutorial-misconduct IAC claim, the district
court similarly ruled that the OCCA did not unreasonably apply Strickland or other
clearly established federal law when it found that no prosecutorial misconduct
occurred and thus any IAC claim premised on the failure to object to such
prosecutorial misconduct also failed.
Cone now seeks to appeal the district court’s order denying his habeas petition,
but he must first obtain a COA. See § 2253(c)(1). We will issue a COA only if Cone
makes “a substantial showing of the denial of a constitutional right.” 28 U.S.C.
3

§ 2253(c)(2). To do so, Cone must show “that reasonable jurists would find the
district court’s assessment of [his] constitutional claims debatable or wrong.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000).
Cone first argues that reasonable jurists could debate the district court’s
rejection of his heat-of-passion IAC claim. In so doing, he contends that, contrary to
the district court’s assessment, the evidence supported instructing the jury on the
heat-of-passion defense.3 Therefore, according to Cone, his trial counsel provided
prejudicial deficient performance by failing to object to the jury instructions.
Yet reasonable jurists could not debate the district court’s analysis on this
point. In particular, the district court determined that the only support for a heat-ofpassion defense was Cone’s “self-serving claim that he was afraid when [Brewer]
attacked him by holding Cone’s throat.” R. vol. 1, 317. But Cone’s statement “was
contradicted by three other witnesses.” Id. And as the district court correctly noted,
under Oklahoma law, a defendant’s self-serving statement concerning the homicide
must be supported by other evidence to warrant a jury instruction. See, e.g., Davis v.

3 Cone’s combined opening brief and COA application raises three arguments,
the first two of which are heat-of-passion arguments. He first asserts that the
evidence at trial only supported heat-of-passion manslaughter, not first-degree
murder, and he second asserts that his counsel was ineffective for failing to request
an instruction on the heat-of-passion defense. To the extent that his first claim raises
a new constitutional claim based on alleged insufficient evidence supporting his
conviction, that claim was not in Cone’s original habeas petition, and we therefore
will not address it here. See Parker v. Scott, 394 F.3d 1302, 1319-20 (10th Cir. 2005)
(“We do not review these claims because [the applicant] failed to assert them in his
district[-]court petition for habeas relief.”). But in construing Cone’s pro se filings
liberally, we consider his arguments regarding the evidence supporting heat of
passion in the context of his heat-of-passion IAC claim.
4

State, 268 P.3d 86, 117 (Okla. Crim. App. 2011) (“A defendant’s statements concerning
the homicide are sufficient to warrant a jury instruction only if those statements are
supported by other evidence presented at trial.”). Here, Cone contends that “the
prosecution never specifically asked [those] witnesses whether they had ever seen
[Brewer] attack [Cone]” and that the prosecution’s witnesses were unreliable. Aplt.
Br. 6. But Cone’s position does not refute or even render debatable the district
court’s conclusion that Cone’s characterization of his own mental state, without
more, does not require instructing the juiy on a heat-of-passion defense. Thus, we
decline to issue a COA on this basis.
Next, Cone argues that reasonable jurists could debate the district court’s
resolution of his prosecutorial-misconduct IAC claim because the district court
incorrectly interpreted the prosecutor’s statements during closing arguments and thus
wrongly concluded that no prosecutorial misconduct occurred. In particular, Cone
contends that the prosecutor improperly solicited victim sympathy when he stated
that he had to be the “voice” of the victim. Aplt. Br. 7. True, prosecutors cannot
“improperly encourage” the jury to allow sympathy for the victim to influence its
decision. Le v. Mullin, 311 F.3d 1002, 1015 (10th Cir. 2002). But reasonable jurists
could not debate the district court’s interpretation of the prosecutor’s statement. As
the district court concluded, in context, “the prosecution was saying that regardless of
the prosecutor’s role, the jury must still follow the instructions” to not let sympathy
influence its verdict. R. vol. 1, 321. Cone’s disagreement with this interpretation does

5

not convince us that reasonable jurists could debate this point. We therefore decline
to issue a COA on this claim. See Slack, 529 U.S. at 484.
Because reasonable jurists could not debate the district court’s denial of
Cone’s § 2254 habeas petition, we deny Cone’s request for a COA and dismiss this
matter. Additionally, because Cone’s claims do not warrant a COA and appointing
counsel at this stage would not compel a different result, we deny Cone’s motion to
appoint counsel on appeal. See Rucks v. Boergermann, 57 F.3d 978, 979 (10th Cir.
1995) (noting that when deciding whether to appoint counsel, we consider “the merits
of the litigant’s claims, the nature of the factual issues raised in the claims, the
litigant’s ability to present his claims, and the complexity of the legal issues raised by
the claims” (quoting Williams v. Meese, 926 F.2d 994, 996 (10th Cir. 1991))); Swazo
v. Wyo. Dep’t of Corr. State Penitentiary Warden, 23 F.3d 332, 333 (10th Cir. 1994)
(“[Tjhere is no constitutional right to counsel beyond the appeal of a criminal
conviction, and . .. generally appointment of counsel in a § 2254 proceeding is left to
the court’s discretion.”).
Entered for the Court
Nancy L. Moritz
Circuit Judge

6

i

IN THE UNITED STATES DISTRICT COURT FOR THE
EASTERN DISTRICT OF OKLAHOMA
JOHN ELDRIDGE CONE, JR.,
Petitioner,

)
)
)
)

v.

) Case No. CIV 16-384-JHP-KEW
)

JANET DOWLING, Warden,
Respondent.

)
)
)

OPINION AND ORDER
This matter is before the Court on Petitioner’s petition for a writ of habeas corpus
filed pursuant to 28 U.S.C. § 2254. Petitioner is a pro se state prisoner in the custody of
the Oklahoma Department of Corrections who currently is incarcerated at Dick Conner
Correctional Center in Hominy, Oklahoma. He is attacking his conviction in Muskogee
County District Court Case No. CF-2012-749 for First Degree Murder (Count 1) and
Assault and Battery with a Deadly Weapon (Count 2).
Following the Court’s determination that Petitioner had filed a mixed petition with
exhausted and unexhausted claims (Dkt. 12), Petitioner advised the Court that he would
proceed with only his exhausted claims (Dkt. 13). He raises the following exhausted
claims, as set forth in the Court’s Opinion and Order entered on August 21, 2017 (Dkt. 14
at 4):
(1) Trial counsel was ineffective for failing to object to allegedly defective
jury instructions.
.

(2) Trial counsel was ineffective for failing to object to alleged instances of
prosecutorial misconduct.

(3) Cumulative error deprived Petitioner of a fair trial.
Id.
Respondent has filed a response to the exhausted claims (Dkt. 17) and has
submitted the following records to the court for consideration in this matter:
A.

Petitioner’s direct appeal brief.

B.

The State’s brief in Petitioner’s direct appeal.

C.

Summary Opinion affirming Petitioner’s judgment and sentence.

D.

Transcripts

E.

State court record.

Background
On direct appeal, the State set forth the facts of the case as follows:
This case arises from the defendant’s murder of Skylar Brewer and
his assault and battery with deadly weapon of Robert Carmans in
Muskogee, Oklahoma, on September 6, 2012. Relevant facts are as
follows. Tenesha Nunley had known the defendant for a couple of months
in September 2012 (Tr. Vol. II, 5). The defendant needed to go to his
mother’s house on September 6, 2012, and he asked Ms. Nunley if he could
borrow her vehicle, an older model blue Tahoe (Tr. Vol. II, 6). Ms.
Nunley allowed him to, and the defendant left Ms. Nunley’s house.
Skylar Brewer, hereinafter referred to as the victim, and Robert
Carmans were over at Letreece [sic] Smith’s house that same evening (Tr.
Vol. I, 179). Ms. Smith drove the victim and Mr. Carmans over to Ms.
Nunley’s house to purchase PCP (Tr. Vol. I, 181; Vol. II, 42). When they
arrived at Ms. Nunley’s house, only the victim went inside to purchase the
PCP from Ms. Nunley (Tr. Vol. I, 181; Vol. II, 9, 43). While they were
waiting at Ms. Nunley’s house, the defendant returned, and the defendant
saw the victim leave Ms. Nunley’s house and get inside Ms. Smith’s car
(Tr. Vol. II, 129).
The defendant went inside Ms. Nunley’s house to return her keys to

her. The defendant then noticed that twenty-five dollars ($25.00) he had
placed on Ms. Nunley’s dryer was missing (Tr. Vol. II, 8, 192). Ms.
Nunley did not know anything about the missing money, but confirmed that
the victim was the only person that had been in her house since the
defendant had left (Tr. Vol. II, 131). Ms. Nunley helped the defendant
attempt to call the victim, but the victim was not answering his phone (Tr.
Vol. II, 131). The defendant then decided to drive around and look for the
[victim]. However, the defendant was unable to locate the victim and
returned to Ms. Nunley’s house (Tr. Vol. II, 132-33).
Ms. Nunley was finally able to make contact with the victim (Tr.
Vol. II, 133). The victim told the defendant to meet him at the Not-a-Spot
Carwash and he would return the money to him (Tr. Vol. II, 135). The
defendant again borrowed Ms. Nunley’s vehicle to meet the victim and get
his money back (Tr. Vol. II, 12). The defendant arrived at the carwash and
asked around for the victim. No one knew where he was so the defendant
began to “holler” the victim’s name aloud (Tr. Vol. II, 46).
Ms. Smith, Mr. Carmans and the victim had returned to Ms. Smith’s
house. Ms. Smith was unloading groceries and taking them inside while
Mr. Carmans and the victim stayed out by Ms. Smith’s car parked in the
driveway and smoked the PCP the victim had purchased from Ms. Nunley
(Tr. Vol. I, 181-82). Ms. Smith’s house was close enough to the carwash
that she heard someone yelling for the victim. She told the victim someone
was looking for him, so he whistled and yelled, “I’m over here.” (Tr. Vol. I,
194; Vol. H, 47, 73).
Travis Dobbins and his wife, Jullie Brittain, lived across the street
from Ms. Smith (Tr. Vol. I, 143, 163). They were outside on the evening
of September 6, 2012, when they noticed a vehicle pull up and park on their
side of the street (Tr. Vol. I, 144, 168). The driver of the vehicle got out
and headed across the street towards Ms. Smith’s house. As the driver
approached the people standing out by Ms. Smith’s car, he started yelling,
“Where’s my money!” (Tr. Vol. I, 146, 169). Mr. Dobbins heard someone
[say], “We don’t have your money,” and “You just need to leave.” (Tr. Vol.
I, 148).
Ms. Smith observed the defendant park across the street and start to
walk towards her house (Tr. Vol. II, 49). The defendant said, “Where’s my
money!” Ms. Smith told him to “[c]hill out,” and asked, “What’s going
on?” (Tr. Vol. II, 50). The defendant was about ten (10) feet away from
3

the victim at the time (Tr. Vol. II, 51). At first the victim was asking,
“What are you talking about?” But then the victim reached in his back
pocket and handed the defendant some money (Tr. Vol. II, [52]). The
defendant took a few steps back, said, “F’ this stuff,” and began shooting at
the victim (Tr. Vol. I, 148, 170; Tr. Vol. II, 53). The defendant then got
back in Ms. Nunley’s vehicle and fled the scene (Tr. Vol. I, 149). The
victim received a total [of] four gunshot wounds from which he died, and
Mr. Carmans’ arm was grazed by a bullet (Tr. Vol. I, 133-35, 184). ...
(Dkt. 18-2 at 8-11) (footnote omitted).
Standard of Review
Under the Anti-Terrorism and Effective Death Penalty Act, federal habeas corpus
relief is proper only when the state court adjudication of a claim:
(1) resulted in a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254(d).
Ineffective Assistance of Trial Counsel
Petitioner alleges his trial counsel was ineffective in failing to object to allegedly
defective jury instructions and alleged instances of prosecutorial misconduct. “There is a
strong presumption that counsel provided effective assistance of counsel and petitioner
has the burden of proof to overcome that presumption.” United States v. Rantz, 862 F.2d
808, 810 (10th Cir. 1988) (citing United States v. Cronic, 466 U.S. 648, 658 (1984)), cert.
denied, 489 U.S. 1089 (1989). In Strickland v. Washington, 466 U.S. 668, 687 (1984),

4

the United States Supreme Court set forth the two-part test for determining the validity of
a habeas petitioner’s claim of ineffective assistance of counsel:
. . . First, the defendant must show that counsel’s performance was
deficient. This requires showing that counsel made errors so serious that
counsel was not functioning as the “counsel” guaranteed the defendant by
the Sixth Amendment. Second, the defendant must show that the deficient
performance prejudiced the defense. This requires showing that counsel’s
errors were so serious as to deprive the defendant of a fair trial, a trial
whose result is reliable. ...
Strickland, 466 U.S. at 687.
The Supreme Court has since expanded the application of Strickland in habeas
corpus proceedings:
The pivotal question is whether the state court’s application of the
Strickland standard was unreasonable. This is different from asking
whether defense counsel’s performance fell below Strickland's standard.
Were that the inquiry, the analysis would be no different than if, for
example, this Court were adjudicating a Strickland claim on direct review
of a criminal conviction in a United States district court. Under AEDPA,
though, it is a necessary premise that the two questions are different. For
purposes of § 2254(d)(1), “an unreasonable application of federal law is
different from an incorrect application of federal law.” Williams v. Taylor,
529 U.S. 362, 410 (2000). A state court must be granted a deference and
latitude that are not in operation when the case involves review under the
Strickland standard itself.
Harrington v. Richter, 562 U.S. 86, 101 (2018) (emphasis in original). When evaluating
the state court’s resolution of Strickland's performance requirement, the federal courts
must “use a ‘doubly deferential’ standard of review that gives both the state court and the
defense attorney the benefit of the doubt.” Burt v. Titlow, 571 U.S. 12, 15 (2013)
(quoting Cullen v. Pinholster, 563 U.S. 170, 189-90 (2011)).

5

Jury Instructions
In his direct appeal to the Oklahoma Court of Criminal Appeals (OCCA),
Petitioner raised a claim that fundamentally defective jury instructions violated his right
to due process. He also raised a claim that trial counsel was ineffective in failing to object
to the alleged errors in the jury instructions. The OCCA rejected both claims on the
merits and upheld Petitioner’s convictions and sentences in Cone v. State, No.
F-2014-477, slip op. at 2-3 (Okla. Crim. App. Aug. 5, 2015) (Dkt. 18-3):
Reviewing Cone’s instructional error challenge for plain error only,
we find none. See Hogan v. State, 139 P.3d 907, 923. The trial court did
not err in submitting a flight instruction because it was warranted in this
case. See Mitchell v. State, 876 P.2d 682, 684 (Okla. Crim. App. 1993).
Any error in the submission of OUJI 3.3 did not affect the outcome of the
trial. Taken as a whole, the jury instructions did not allow jurors to
recommend a sentence based on probabilities, but on the evidence
presented. Cone has not shown plain error.
Nor can Cone show plain error resulted from the trial court’s
instructions concerning a witness’s prior inconsistent statement, the court’s
instruction on other crimes evidence or from the omission of certain heat of
passion manslaughter instructions because the alleged deficiencies did not
affect the outcome of the trial or result in a substantial violation of a
constitutional or statutory right. See McIntosh v. State, 237 P.3d 800, 803
(Okla. Crim. App. 2010). ...
Cone, slip op. at 2. “Cone cannot show any prejudice from defense counsel’s failure to
object to or request the appropriate instruction as alleged in Proposition 1 .. ..” Id. at 3.
In his habeas petition, Petitioner has abandoned his defective jury instmction
claim, only raising a claim that trial counsel was ineffective in failing to object to the jury
instructions.

Because Petitioner’s underlying claims fail on the merits, however, his

6

. i

claim of ineffective assistance of counsel for failing to raise these issues also must fail.
See Cannon v. Mullin, 383 F.3d 1152, 1162 (10th Cir. 2004) (finding no deficient
performance in defense counsel’s failure to object when there was “no meritorious
state-law objection available”. to counsel). See also Hawkins v. Hannigan, 185 F.3d
1146, 1152 (10th Cir. 1999) (holding that appellate counsel’s failure to raise a meritless
claim does not amount to constitutionally ineffective assistance).
Petitioner specifically alleges his trial counsel was ineffective in failing to raise
objections to the following: (1) the flight instruction, (2) the instruction that the verdict
must be based on probabilities and not possibilities, (3) the instruction on the use of a
witness’s prior inconsistent statement, (4) failure to instruct on the proper use of other
crimes or bad acts evidence, and (5) the instruction on the lesser crime of manslaughter.
The OCCA reviewed the merits of these claims for plain error, as none of the allegations
were raised in the trial court, and found no error. Cone, slip op. at 2. With regard to the
claim of ineffective assistance of counsel for failing to raise these claims, citing
Strickland, the OCCA determined Petitioner was unable to show prejudice, because any
instructional error was harmless. Cone, slip op. at 3. This Court finds the OCCA’s
determination was not contrary to, or an unreasonable application of Strickland.
Flight Instruction
Petitioner alleges his trial counsel was ineffective in failing to object to the flight
instruction given at his trial. He argues that the evidence he left the scene of the murder
was uncontroverted, therefore it was error to give the flight instruction. The OCCA,
7

however, found the evidence warranted the flight instruction, and Petitioner suffered no
prejudice. Cone, slip op. at 2-3. “In cases where a defendant places himself at the scene
of the crime and departs from the scene the instruction may be appropriate.” Williamson
v. State, 422 P.3d 752, 762 (Okla. Crim. App. 2018).
The record shows Petitioner fled to avoid arrest for the murder of the victim. He
testified at trial that he fired his pistol at the victim in self-defense, then dropped the gun
and ran, because he was scared and never had been in that situation before. (Tr. II,
149-51, 195, 199-200). Officer Rob Frazier received information that Petitioner was at a
house on Irving Street the day after the murder. Id. at 98. Frazier observed Petitioner
and others leave the house, get in a car, begin to leave, then pull back in the driveway,
exit the car, and go around the back of the house. Id at 99. When Frazier searched the
house, he was informed that Petitioner had jumped the fence and fled. Id.
Respondent argues the issue of flight was put before the jury by Petitioner when he
attempted to explain why he fled the scene of the murder. The OCCA has long upheld
giving a flight instruction where the defendant “testified at trial explaining his departure.”
Ashton v. State, 400 P.3d 887, 897 (Okla. Crim. App. 2017). In addition, the OCCA
reviews the question of flight as “one of fact and not of law.” Vavra v. State, 509 P.2d
1379, 1384 (Okla. Crim. App. 1973) (quoting Ward v. State, 444 P.2d 255, 259 (Okla.
Crim. App. 1968)).

The OCCA’s factual findings are entitled to a presumption of

correctness, unless Petitioner produces clear and convincing evidence to rebut the
presumption. 28 U.S.C. § 2254(e)(1).
8

. S

This Court finds the OCCA’s holding that the instruction was warranted was not
an unreasonable determination of the facts. The Court further finds that Petitioner has
failed to show by clear and convincing evidence that this factual finding was
unreasonable.
Because the instruction was warranted, Petitioner’s trial counsel was not
ineffective for failing to object. See Spears v. Mullin, 343 F.3d 1215, 1249 (10th Cir.
2003) (finding trial counsel was not ineffective for failing to object to a flight instruction
where the OCCA found sufficient evidence supported giving the instruction).

The

OCCA also found Petitioner suffered no prejudice from the instruction or from trial
counsel’s failure to object. Cone, slip op. at 3. The likelihood of a different result must
be substantial, not just conceivable.” Richter, 562 U.S. at 112.
Here, the evidence was overwhelming. Three witnesses testified that Petitioner
murdered the victim and shot Mr. Carmans (Tr. Vol. 1, 160, 177; Vol. II, 53). Without
the flight instruction, Petitioner’s jury would not have had “a reasonable doubt respecting
guilt.” Strickland, 466 U.S. at 695. The Court therefore finds the OCCA’s determination
of this claim was not contrary to, or an unreasonable application of Supreme Court law,
or an unreasonable determination of the facts presented at trial.
The Civil Instruction
Petitioner alleges his trial counsel was ineffective in failing to object to a civil
instruction that was given to the jury. He specifically asserts Civil Instruction No. 3.3,
OUJI-CIV(2d), reduced the prosecution’s burden of proof. Civil Instruction 3.3, titled
9

. s

“No Speculation,” states, “Your decision must be based upon probabilities, no
possibilities. It may not be based upon speculation or guesswork.” (Dkt. 18-5, No. 13).
The OCCA denied relief on this claim as follows: “Any error in the submission
of OUJI 3.3 did not affect the outcome of the trial.

Taken as a whole, the jury

instructions did not allow jurors to recommend a sentence based on probabilities, but on
the evidence presented. Cone has not shown plain error.”

Cone, slip op. at 2.

While the OCCA found there may have been error in giving the instruction, the
Supreme Court has held:
. . .[T]he fact that the instruction was allegedly incorrect under state
law is not a basis for habeas relief. Federal habeas courts therefore do not
grant relief, as might a state appellate court, simply because the instruction
may have been deficient .... The only question for us is whether the
ailing instruction by itself so infected the entire trial that the resulting
conviction violates due process.
Estelle v. McGuire, 502 U.S. 62, 71-72 (1991) (internal citations and quotations omitted).
Looking at Petitioner’s jury instructions as a whole, the Court finds the jury was
fully instructed that its duty was to determine the facts; to apply the law to the facts; to
avoid sympathy, prejudice, speculation or guesswork in determining a sentence; and to
disregard testimony when an objection was sustained. (Dkt. 19-5). The jury also were
instructed that the jurors were the sole judges of the value and believability of witness
testimony and how to evaluate testimony, and that attorney statements were not evidence,
along with an instruction on the prosecution’s burden of proof. Id.

The Court thus

concludes that in the context of the other instructions, Civil Instruction 3.3 did not affect

10

the outcome of the trial.
In addition, Petitioner has failed to show that if his trial counsel had objected , and
this instruction was excluded, that there is a reasonable probability the result of the trial
would have been different. “The likelihood of a different result must be substantial, not
just conceivable.” Richter, 562 U.S. at 112. The Court, therefore, finds the OCCA’s
finding of no prejudice is not unreasonable. Further, Petitioner cannot show the OCCA’s
ruling “was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.”
Richter, 562 U.S. at 103. Petitioner is not entitled to habeas relief on this claim. See 28
U.S.C. § 2254(d).
Prior Inconsistent Statement Instruction
Petitioner next alleges his trial counsel was ineffective in failing to object to a prior
inconsistent statement instruction.

The OCCA reviewed the underlying substantive

claim for plain error, because this issue was not raised at trial. The Tenth Circuit has
found that the OCCA’s “formulation of the plain-error standard is virtually identical to
the constitutional test for due process.” Hancock v. Trammel, 798 F.3d 1002, 1011 (10th
Cir. 2015); Thornburg v. Mullin, 422 F.3d 1113, 1125 (10th Cir. 2005) (finding “no
practical distinction between the formulations of plain error . . . and the federal
due-process test, which requires reversal when error so infused the trial with unfairness as
to deny due process of law” (citation and internal quotation marks omitted)). When the
OCCA rejects a claim “under the plain-error standard, the decision effectively disallow[s]
11

. s

the possibility of a due process violation.” Hancock, 798 F.3d at 1011. As Petitioner’s
underlying claim is without merit, his trial counsel was not ineffective for failing to
object.
The OCCA held there was no plain error, because “the alleged deficienc[y] did not
affect the outcome of the trial or result in a substantial violation of a constitutional or
statutory right.”

Cone, slip op. at 2 (citation omitted).

The OCCA further held

Petitioner’s trial counsel was not ineffective for failing to object, because Petitioner could
not show prejudice. Id. at 3. This Court finds the OCCA’s holding is supported by the
record and not contrary to Strickland.
The record shows that Latreece Smith testified that she never had been to Tenesha
Nunley’s house prior to taking the victim there to purchase PCP.

(Tr. Vol. II, 64).

Petitioner’s trial counsel then confronted Smith with her preliminary hearing testimony
that she did not know the reason the victim wanted her to take him to that house, and that
she had been to that house before. Id. at 65. The trial court instructed the jury that Ms.
Smith previously had provided a prior inconsistent statement that only could be
considered for impeachment purposes and not as proof of innocence or guilt. (Dkt. 18-5,
No. 28). On direct appeal Petitioner claimed the jury should have been instructed that
the prior inconsistent statement may be considered as proof of innocence. (Dkt. 18-1 at
21-22).
Petitioner, however, failed to explain on direct appeal or in his habeas petition
how, or why, this is substantive evidence of his innocence. “Although we must liberally
12

construe [Petitioner’s] pro se petition, we are not required to fashion [Petitioner’s]
arguments for him where his allegations are merely conclusory in nature and without
supporting factual averments.” United States v. Fisher, 38 F.3d 1144, 1147 (10th Cir.
1994) (internal citation omitted).

Neither the number of times Smith had been to

Nunley’s house, nor whether the victim bought PCP establishes Petitioner’s innocence.
The record shows that Smith did take the victim to Nunley’s home, and Petitioner saw the
victim leave as Petitioner arrived. Moreover, Petitioner murdered the victim because he
believed the victim stole $25.00 from him. Neither version of the inconsistent statement
helps establish Petitioner’s innocence.
The OCCA held that Petitioner was unable to show plain error from the
instruction. Cone, slip op. at 2. Because Petitioner cannot show plain error, he cannot
show a denial of a fundamentally fair trial. See Hancock, 798 F.3d at 1011. Petitioner
%*

also is unable to show that had his jury been instructed as Petitioner argues, there is a
substantial likelihood of a different result. See Richter, 562 U.S. at 112. Trial counsel
therefore was not ineffective. Thus, the OCCA’s ruling was not “so lacking in
justification that there was an error well understood and comprehended in existing law
beyond any possibility for fairminded disagreement.” Richter, 562 U.S. at 103. This
claim for habeas relief fails.
Other Crimes Instruction
Petitioner alleges his trial counsel was ineffective in failing to object to the trial
court’s omission of a portion of the limiting instruction on other crimes or bad acts
13

evidence. The OCCA reviewed the underlying substantive claim for plain error as this
issue was not raised during Petitioner’s trial. Again, the OCCA’s “formulation of the
plain-error standard is virtually identical to the constitutional test for due process.”
Hancock, 798 F.3d at 1011. Because Petitioner’s underlying claim is without merit, his
trial counsel cannot be ineffective for failing to object.
The OCCA held there was no plain error, because “the alleged deficienc[y] did not
affect the outcome of the trial or result in a substantial violation of a constitutional or
statutory right.” Cone, slip op. at 2. The OCCA then held Petitioner’s trial counsel was
not ineffective for failing to object, because Petitioner could not show prejudice. Id. at 3.
The OCCA’s decision is supported by the record and not contrary to Strickland.
Tenesha Nunley, testified she had not sold PCP out of her house. She instead
claimed Petitioner was the seller.

(Tr. Vol. II, 9).

This testimony clearly was

unexpected and was not intentionally elicited for the purpose of proving Petitioner was a
drug dealer. Defense counsel asked to approach the bench and requested a mistrial. Id.
at 10-11. The trial court denied the request but acknowledged that “the surprise is that,
obviously, we’re now throwing the blame of selling drugs on [Petitioner].” Id. at 11.
The subject never was brought up again with Nunley, and Petitioner testified on his own
behalf that he neither sold nor used drugs.

The trial court then correctly gave the

following limiting instruction about evidence of other crimes to the jury during the
closing instructions:
Evidence has been received that the defendant has allegedly committed an
14

offense other than that charged in the [Information. You may not consider
this evidence as proof of the guilt or innocence of the defendant of the
specific offense charged in the Information. This evidence is to be
considered by you only for the limited purpose for which it was received.
(Dkt. 18-5, No. 23).
The instruction given to the jury omitted the sentence, “This evidence has been
received solely on the issue of the defendant’s alleged motive/opportunity/intent/
preparation/ (common scheme or plan) /knowledge/identity/ (absence of mistake or
accident).” (Instruction No. 9-9, OUJI-CR(2d)). Respondent asserts the omitted sentence
was properly removed as the evidence was not intentionally admitted as evidence to
prove motive, opportunity, intent, preparation, common scheme or plan, knowledge,
identity, or an absence of mistake or accident.
The Court finds that including that language would have confused the jury. Thus,
even if Petitioner’s trial counsel had argued to include the language, that request would
have properly been overruled. Petitioner’s counsel was not ineffective for failing to raise
a meritless objection.
Further, if Petitioner’s counsel’s request to include the language had been granted,
and the jury was so instructed, Petitioner has not shown there is a reasonable probability
that the outcome of the trial would have been different. Regardless of whether Petitioner
or Nunley sold PCP, the evidence showed Petitioner believed the victim had stolen
$25.00 from him, so he murdered the victim.
Petitioner testified on his own behalf that he did not sell drugs, although whether

15

Petitioner was actually a drug dealer never was an issue at trial. Consequently, any
instruction that the evidence he was a drug dealer was admitted to prove motive,
opportunity, intent, preparation, common scheme or plan, knowledge, identity, or an
absence of mistake or accident, would not have helped establish his innocence.
Accordingly, Petitioner is unable to show that had his jury been instructed as he claims it
should have, there is a substantial likelihood of a different result. Richter, 562 U.S. at
112. Thus, the OCCA’s ruling that counsel was not ineffective was not “so lacking in
justification that there was an error well understood and comprehended in existing law
beyond any possibility for fairminded disagreement.”

Id. at 103.

Petitioner is not

entitled to habeas relief on this claim.
Instruction on Lesser-Included Crime of Manslaughter
Finally, Petitioner alleges his trial counsel was ineffective in failing to object that
the instructions on the lesser-included offense of heat-of-passion manslaughter were
incomplete. Petitioner claims the jury should have been instructed on Instruction Nos.
10-13, 4-95A, 4-97 through 4-99, and 4-101, OUJI-CR(2d), which relate to the defense of
heat-of-passion manslaughter. Respondent asserts the jury was improperly instructed on
the lesser-included offense of heat-of-passion manslaughter, because it was not supported
by the evidence. (Dkt. 18-5, No. 37).
A review of the record shows there was no evidence to support the instruction on
heat-of-passion manslaughter.

Therefore, giving it to the jury was a windfall to

Petitioner, and if it was incomplete, he was not harmed. The OCCA denied relief on the
16

;

Si

underlying claim, holding that any alleged deficiency did not affect the outcome of the
trial. Cone, slip op. at 2. The OCCA also denied Petitioner’s ineffective assistance of
counsel claim, finding Petitioner could not establish prejudice. Id. at 3. This Court
finds Petitioner has failed to establish the OCCA’s determination of this issue was an
unreasonable application of Strickland, or an unreasonable determination of the facts
presented at trial.
Instruction No. 10-13 is a basic instruction on how to return a verdict. The Notes
on Use for Instruction No. 10-13 clearly state that “[tjhis instruction should be used in
cases where there are no lesser included offenses charged . . . .” OUJI-CR(2d) 10-13.
Because the jury was instructed on a lesser-included offense, there was no error in
omitting this instruction.
Regarding Instruction No. 4-95A, “Defense of Heat of Passion,” the Court notes
that Petitioner did not raise a heat-of-passion defense, thus, he was not automatically
entitled to
the lesser-included instruction on heat-of-passion manslaughter. Although Petitioner did
not raise the heat-of-passion defense, he nonetheless may have been entitled to the
instruction under Oklahoma law.
We have long recognized that when a defendant is charged with
first-degree,
premeditated murder, and he counters the charge with a claim of
self-defense, the facts may be such as to warrant conviction on a lesser form
of homicide, particularly heat-of-passion manslaughter. The fear of being
injured or killed, such as might justify using deadly force in self-defense, is
a kind of “passion” contemplated by the offense of heat-of-passion
17

manslaughter.
McHam v. State, 126 P.3d 662, 668 (Okla. Crim. App. 2005). Under the facts of the
case, however, Petitioner was not entitled to a self-defense, heat-of-passion instruction.
The evidence clearly showed that Smith drove the victim and Robert Carmans to
Nunley’s house to purchase PCP. (Tr. Vol. I, 181; Vol. II, 42). When they arrived at
Nunley’s house, only the victim went inside to purchase the PCP from Nunley. (Tr. Vol.
I, 181; Vol. II, 9, 43). While they were waiting at Nunley’s house, Petitioner returned
and saw the victim leave Nunley’s house and get inside Smith’s car. (Tr. Vol. II, 129).
Petitioner then went inside Nunley’s house to return her keys to her. Petitioner noticed
that the $25.00 he had placed on Nunley’s dryer was missing. Id. at 8, 129. He then
left, asked around for the victim, returned to Nunley’s house, talked to the victim on the
phone, left Nunley’s house again, and looked for the victim at a car wash before finally
arriving at Smith’s house. Id. at 12, 46-47, 131-135.
The only possible claim Petitioner could have had for heat of passion was his
self-serving claim that he was afraid when the victim attacked him by holding Petitioner’s
throat. Id. at 146-47.

This statement, however, was contradicted by three other

witnesses. Petitioner thus was not entitled to the self-defense, heat-of-passion instmction,
because there was no other evidence presented at trial to support Petitioner’s assertion.
Under Oklahoma law, “[a] defendant’s statements concerning the homicide are
sufficient to warrant a jury instruction only if those statements are supported by other
evidence presented at trial.” Davis v. State, 268 P.3d 86, 117 (Okla. Crim. App. 2011).
18

\
\

“[Wjhen the only evidence supporting the appellant’s claim to an instruction on a lesser
form of homicide was his own self-serving statements and those statements were
contradictory and inconsistent with the other evidence presented at trial, the evidence was
insufficient to warrant the jury instruction.” Cipriano v. State f 32 P.3d 869, 874 (Okla.
Crim. App. 2001) (paraphrasing Newsted v. Gibson, 158 F.3d 1058, 1092 (10th Cir.
1998)). Two witnesses, Travis Dobbins (Tr. Vol. I, 160-61) and Jullie Brittain, id. at
177, testified that Petitioner was at least five feet away from the victim when he fired his
weapon. Thus, Petitioner’s claim that his jury should have been instructed on Instruction
No. 4-95 A, OUJI-CR(2d), Defense of Heat of Passion, is incorrect.
Finally, as Petitioner was not entitled to a heat-of-passion manslaughter
instruction, he also was not entitled to the other instructions on heat of passion,
Instruction Nos. 4-97 through 4-99 and 4-101, which the Notes on Use for Instruction No.
4-95A state also should be used. As stated above, the fact that the jury was instructed on
heat-of-passion manslaughter as a lesser-included offense was a windfall for Petitioner,
and he cannot now complain that the instructions were incomplete. The Court, therefore,
finds there was no error in the failure to give instructions to which the defendant was not
entitled. See Hawkins, 185 F.3d at 1152.
After careful review, the Court also finds Petitioner has not shown that had his trial
counsel objected, and the allegedly missing instructions had been included, there is a
reasonable probability the result of his trial would have been different. Therefore, the
OCCA’s finding of no prejudice is not unreasonable. The Court further finds Petitioner
19

cannot show the OCCA’s ruling was consistent with Supreme Court law. This claim for
habeas relief also fails.
Prosecutorial Error
Petitioner’s second ground for relief alleges his trial counsel was ineffective in
failing to object to alleged instances of prosecutorial error. On direct appeal, he raised a
claim of prosecutorial error, as well as a claim of ineffective assistance of counsel for
failing to object to the prosecutorial error. The OCCA denied relief on both claims on
the merits:
. . . When the challenged comments of the prosecutor are read in
context, considering the corresponding arguments of defense counsel and
the strength of the evidence, there is nothing in the challenged comments,
individually or cumulatively, that deprived Cone of a fair trial. . . .
Cone cannot show any prejudice from defense counsel’s failure to
object to . . . specific instances of prosecutorial misconduct . . . because
there was no prosecutorial misconduct....
Cone, slip op. at 3 (citations omitted).
In this habeas action, Petitioner has abandoned the prosecutorial error claim,
raising only the ineffective counsel claim.

Respondent alleges that because the

underlying claim of prosecutorial error is meritless, Petitioner’s claim of ineffective
assistance of counsel related to the prosecutorial error also must fail.
Petitioner complains his trial counsel was ineffective for failing to object to the
following instances of alleged prosecutorial error:

(1) the prosecution’s evoking

sympathy for the victim, (2) the admission of State’s Exhibit 20, and (3) the prosecution’s

20

misleading the jury.

In a claim of prosecutorial error, it “is not enough that the

prosecutors’ remarks were undesirable or even universally condemned. The relevant
question is whether the prosecutors’ comments so infected the trial with unfairness as to
make the resulting conviction a denial of due process.” Darden v. Wainwright, All U.S.
168, 181 (1986) (citations omitted). Respondent asserts the OCCA’s determination that
Petitioner’s trial counsel was not ineffective for failing to object to alleged instances of
prosecutorial error was not contrary to, or an unreasonable application of Supreme Court
law, or an unreasonable determination of facts presented at trial.

See 28 U.S.C. §

2254(d).
Because Petitioner’s trial counsel did not object to the prosecutor’s comments, the
OCCA reviewed the claims for plain error. Cone, slip op. at 3. As noted earlier, the
OCCA’s “formulation of the plain-error standard is virtually identical to the constitutional
test for due process.” Hancock, 798 F.3d at 1011; Thornburg, 422 F.3d at 1125. When
the OCCA rejects a claim “under the plain-error standard, the decision effectively
disallow[s] the possibility of a due process violation.” Hancock, 798 F.3d at 1011. As
shown below, Petitioner’s underlying claim of prosecutorial error is without merit, thus,
under 28 U.S.C. § 2254(d), his trial counsel was not ineffective for failing to object.
Sympathy for the Victim
Petitioner claims the prosecution evoked sympathy for the victim through the
comment that he had to be the “voice for the victim.”
prosecution began his second closing argument by stating:
21

(Tr. Vol. Ill, 19).

The

It’s hard to not let emotion enter into this, because emotion is what
got us to this point. The Judge instructed you that you’re not supposed to
let sympathy of prejudice enter into your deliberations and your decisions.
And I agree with that. But I have to be the voice for Skylar Brewer,
because he’s dead. Mr. Cook is doing his job by talking about him the way
he does, but he’s dead. So I’m his voice here today with you, because he
doesn’t have a voice.
Id.
The OCCA found no error in the comment. Cone, slip op. at 3. The OCCA also
denied Petitioner’s ineffective assistance claim, because this underlying claim was
without merit. Id. at 3. The record shows the prosecution actually emphasized the trial
court’s instruction that the jury was not supposed to let sympathy play a part in the
deliberations. The basis of Petitioner’s complaint is that even though the prosecution
emphasized the trial court’s instruction against sympathy, the prosecution then said “but,”
he had to be the “voice for the victim.” However, when read in context of the argument,
it is clear the prosecution was not using the conjunction “but” to ask the jury to disregard
the trial court’s instruction. Rather, the prosecution was saying that regardless of the
prosecutor’s role, the jury must still follow the instructions. Because any objection
would have been properly overruled, there was no prejudice, and the failure to object did
not constitute deficient performance.
Further, as discussed above, the evidence against Petitioner was overwhelming.
A determination of prosecutorial error can only be made after considering all the
surrounding circumstances, including the strength of the prosecution’s case.

See

Darden, All U.S. at 181-182. Considering the argument in the context of the entire trial,
22

the comment clearly did not result in a denial of due process. See Malicoat v. Mullin,
426 F.3d 1241, 1255 (10th Cir. 2005) (addressing a victim sympathy claim where the
prosecutor conducted a substantial portion of his argument in the voice of the deceased
victim and finding no constitutional error where the prosecutor’s argument was based on
the evidence presented).
The OCCA reviewed Petitioner’s allegations of ineffective assistance of counsel
on the merits and denied relief. This Court again finds the OCCA’s determination was
not contrary to, or an unreasonable application of, clearly established Supreme Court law,
nor an unreasonable determination of the facts. Petitioner cannot show that the OCCA’s
ruling “was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.”
Richter, 562 U.S. at 103. Petitioner, therefore, is not entitled to habeas relief on this
claim.
State’s Exhibit 20
Petitioner claims his trial counsel was ineffective in failing to object to the
prosecution’s improperly admitting State’s Exhibit 20 into evidence without proper
authentication. State’s Exhibit 20 is a photograph of a blood stain in the grass near the
left front tire of Smith’s vehicle. The blood stain was used to establish the distance
between the victim and Petitioner, as eyewitness testimony placed Petitioner at the rear of
the vehicle and the victim at the front. The OCCA found no error in admitting this
exhibit. Cone, slip op. at 3. The OCCA also denied Petitioner’s ineffective assistance
23

claim, because this underlying claim was without merit. Id.
This Court finds Petitioner’s argument must fail, because under Oklahoma law, the
photograph was properly admitted:
A photograph may be authenticated by any method sufficient to
establish that it depicts what it purports to depict, including (1) comparison
by the trier of fact with other evidence that has been authenticated, and (2)
“[ajppearance, content, substance, internal patterns or other distinctive
characteristics taken in conjunction with circumstances.”
Grant v. State, 205 P.3d 1, 21 (Okla. Crim. App. 2009) (citing Okla. Stat. tit. 12, §
2901(A), (B)(3), (4)).

Therefore, any objection to the photograph would have been

properly overruled and cannot constitute deficient performance.
The record shows the prosecution was cross-examining Petitioner on his testimony
that the victim attacked him near the rear of Smith’s vehicle. (Tr. Vol. n, 193-194).
The prosecution then handed Petitioner State’s Exhibit 4 and asked him to identify where
the blood from the victim was. Petitioner acknowledged that the blood was close to the
left front tire of the vehicle.

(Id. at 195; State’s Exhibit 4).

The prosecution then

handed Petitioner State’s Exhibit 20, which by all accounts is the same photograph as
State’s Exhibit 4, except it is a close-up view of the blood around the left front tire of
Smith’s vehicle. (Tr. Vol. II, 195-196; State’s Exhibits 4, 20 (Dkt. 18-6)).
Petitioner admitted that State’s Exhibit 20 was a photo of the victim’s blood near
the tire, and the prosecution moved to admit the exhibit into the evidence. (Tr. Vol. II,
195-196). Petitioner’s counsel did not object to the photograph and the trial court
admitted it. Id. at 196. As stated above, State’s Exhibit 20 is substantially the same
24

photo as State’s Exhibit 4. Petitioner himself recognized and identified the blood in both

V

photos. Petitioner thus has failed to show that the admission of this exhibit was error,
much less that his trial counsel was ineffective for failing to object to its admission.
The OCCA reviewed Petitioner’s allegations of ineffective assistance of counsel
on the merits and denied relief. As shown above, the OCCA’s determination was not
contrary to, or an unreasonable application of, clearly established Supreme Court law, nor
an unreasonable determination of the facts. For these reasons, Petitioner is not entitled to
habeas relief on this claim.
Misleading the Jury
Petitioner alleges his trial counsel was ineffective in failing to object to the
prosecution’s attempt to mislead the jury into thinking Petitioner had committed an
uncharged crime. The OCCA denied relief on this claim. Cone, slip op. at 3. The
OCCA also found no merit in Petitioner’s ineffective assistance claim, because the
underlying claim was meritless. Id.
During the prosecution’s cross-examination of Petitioner, the prosecutor attempted
to establish a timeline of when, and how long, Petitioner had possessed the firearm he
used to murder the victim. (Tr. Vol. II, 156-159). Petitioner was evasive about when he
purchased the firearm and how long actually had had it. Id. The prosecutor then asked,
“That’s probably not the type of transaction that you get a receipt or anything for; is it?
Id. at 158. Petitioner asked the prosecutor, “Explain that to me.” Id. The prosecutor
responded, “When you give a guy 50 bucks and he gives you a gun, you don’t- that’s not
25

V

*

a legitimate transaction; is it? You don’t get a receipt and say, ‘Here, this is a registered
firearm?”’ Id. at 158-159. Petitioner replied, “No.” Id. at 159.
Petitioner asserts his trial counsel was ineffective in failing to object to the
prosecution’s alleged attempt to mislead the jury into thinking Petitioner’s firearm
purchase was not a legitimate transaction, when Petitioner admitted he owned the firearm
and shot the victim. Id. at 154-159.
Prosecutorial comments violate due process only when the prosecutor’s conduct is
so egregious in the context of the entire trial that it renders the trial fundamentally unfair.
Donnelly, 416 U.S. at 642-648. Petitioner’s trial counsel did not object, thus, the OCCA
reviewed the claims for plain error. Cone, slip op. 3. As stated above, the OCCA’s
“formulation of the plain-error standard is virtually identical to the constitutional test for
due process.” Hancock, 798 F.3d at 1011. See also Thornburg, 422 F.3d at 1125. As
Petitioner’s underlying claim of prosecutorial error is without merit, his trial counsel
cannot be ineffective for failing to object. Therefore, Petitioner is not entitled to habeas
relief on this claim. Further, the OCCA’s determination of this claim was consistent with
Strickland.
Cumulative Error
Finally, Petitioner alleges the accumulation of errors in his trial violated his
constitutional rights. On direct appeal, the OCCA found no merit in this claim: “There
are no errors, considered individually or cumulatively, that merit relief in this case.”
This claim is denied.” Cone, slip op. at 3-4 (citing Jones v. State, 201 P.3d 869, 894
26

(Okla. Crim. App. 2009); DeRosa v. State, 89 P.3d 1124, 1127 (Okla. Crim. App. 2004)).
“[T]he Supreme Court has never recognized the concept of cumulative error”
Bush v. Carpenter, 926 F.3d 644, 686 n.16 (10th Cir. 2019).

Nonetheless,

“[c]umulative-error analysis applies where there are two or more actual errors. It does
not apply, however, to the cumulative effect of non-errors.” Hoxsie v. Kerby, 108 F.3d
1239, 1245 (10th Cir.) (citing United States v. Rivera, 900 F.2d 1462, 1471 (10th Cir.
1990) cert, denied, 522 U.S. 844 (1997)). See also Castro v. Ward, 138 F.3d 810,
832-33 (10th Cir.), cert, denied, 525 U.S. 971 (1998); Le v. Mullin, 311 F.3d 1002, 1023
(10th Cir. 2002), cert, denied, 540 U.S. 833 (2003) (“When reviewing a case for
cumulative error, only actual errors are considered in determining whether the
defendant’s right to a fair trial was violated.”).
Here, the OCCA and this Court found no errors in Petitioner first and second
grounds for relief. The Court, therefore, concludes Petitioner cannot establish there was
cumulative error, or that the OCCA’s decision was contrary to Supreme Court law. He,
therefore, is not entitled to habeas relief on this claim.
Certificate of Appealability
The Court further finds Petitioner has failed to make a “substantial showing of the
denial of a constitutional right,” as required by 28 U.S.C. § 2253(c)(2). In addition, he
has not “demonstrate[d] that reasonable jurists would find [this] court’s assessment of the
constitutional claims debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Therefore, Petitioner should be denied a certificate of appealability.
27

r

ACCORDINGLY, Petitioner’s petition for a writ of habeas corpus (Dkt. 1) is
DENIED, and Petitioner is DENIED a certificate of appealability.
IT IS SO ORDERED this 30th day of September 2019.

m
7$mes H. Payne

//rfS

/

|£lnited States District Judge
Eastern District of Oklahoma

28

r
UNITED STATES COURT OF APPEALS

FILED
United States Court of Appeals
Tenth Circuit

FOR THE TENTH CIRCUIT

May 22, 2020
Christopher M. Wolpert
Clerk of Court

JOHN ELDRIDGE CONE,
Petitioner * Appellant,
v.

No. 19-7068
(D.C. No. 6:16-CV-00384-JHP-KEW)
(E.D. Okla.)

JANET DOWLING, Warden,
Respondent - Appellee.

ORDER

0

Before BACHARACH, BALDOCK, and MORITZ, Circuit Judges.
Appellant’s petition for rehearing is denied.
The petition for rehearing en banc was transmitted to all of the judges of the court
who are in regular active service. As no member of the panel and no judge in regular
active service on the court requested that the court be polled, that petition is also denied.
Entered for the Court
—■

CHRISTOPHER M. WOLPERT, Clerk

Appendix L

